. A3

5.

Supreme Court
of the United States
Affidavit of Service by Mail
X

Proof of Service

Gerald Aranoff,
Petitioner
-againstSusan Aranoff,

Docket #’s 18-7160, 18-9390
Respondent

NYS Court of Appeals
NYS Appellate Div. 2nd Judicial Dept.
X

NYS Kings County Supreme Court

State of Israel
Tel-Aviv

SS:

Gerald Aranoff, being duly sworn, deposes and says:
I sent by UPS-express true copy of a Petition for a Writ of Certiorari to NYS Court of
Appeals dated November 25, 2019 and true copy of a Motion for Leave to Proceed In Forma
Pauperis dated November 25, 2020 to: US Supreme Court, 1 First Street, NE, Washington,
DC 20543-0001 USA attention Scott S. Harris, Clerk of the Court 202-479-3039 to:
Susan Aranoff
498 East 18 Street, Brooklyn, NY 11226 USA
phones: 718-284-2093 917-671-7274
email: susanaranoff@gmail.com;

Gerald Aranoff

7*

8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il
Date: November 25, 2020

received

DEC - 2 2020
gr,ggiMSTcToHuERcTLEuRsK

J

FROM:

i

UPS ACCOUNT NUMBER 164473
972-0779140789
ARANOFF GERALD DR
8 MIRYAM HA-NEVI'A ST.
BNEIBRAK 51583
ISRAEL

0.5 KG

ENV 1 OF 1

NY 112 9-08

SHP#: 56WW51GC 2HR
SHP WT: 0.5 KG
DATE: 25 NOV 2020

mm

* ♦

SHIP TO:
SUSAN ARANOFF
(718) 284-2093
SUSAN ARANOFF
498 EAST 18 ST.

UPS EXPRESS

1

TRACKING #) 1Z 56W W51 (56 4235 4181

BROOKLYN NY 11226
UNITED STATES

BILLING: P/P
DESC: DOCUMENTS

EDI-DOC

Shipper agrees to the UPS. Terms found at w w.ups.com and UPS service centers. For International air carnage, the
Warsaw Convention as amended or Montrea Conventiori may apply and limits UPS's liability for loss or damage to cargo.
International carriage by road may be subjec to the Conv ention on the Contract for the International Carriage of Goods By
Road. Except as otherwise, governed by Inter rational con renltons or other mandatory law, the UPS Terms limit UPS's
liability for damage, loss oi delay of this shipment. There ire no stopping places agreed upon at the lime of tender of the
shipment and UPS reserve s the right to route the shlpme it in any way It deems appropriate. Where allowed by law shipper
authonzes UPS to act as ft warding agent fo export coni ol and customs purposes. If exported from the US, shipper
certifies that the commodit es. technology or roftware were exported from the US in accordance with the Export
Administration Regulations. Diversion contra y to law Is p ohibiled.
WS 21.0.23 Canon iR1133 34.0A 10/202(

Fold here and place in label pouch

TR#:1Z 56W W51 66 4235 4181

SHIPPER'S SIGNATURE

DATE OF SHIPMENT
C

Y

f,

.k?

0.5 KG

FROM:
UPS ACCOUNT NUMBER 164473
•t372-0779140789
4RANOFFGERALD DR
B MIRYAM HA-NEVIA ST.
3NEI BRAK 51583
ISRAEL

ENV 1 OF 1
SHPSL 56WW 51G3 CSC
SHP WT: 0.5 KG
DATE: 25 NOV 2020

SHIP TO:
JOHN P. ASIELLO CLERK
(151) 845-5770 0
NYC COURT OF APPEALS
20 EAGLE ST.

mm

NY 122 3-99

UPS EXPRESS

1

TRACKING #: 1Z 56W W51 66 4117 3404

ALBANY NY 12207
UNITED STATES

BILLING: P/P
DESC: DOCUMENTS

EDI-DOC

Internationa! carriage by road may be subject to the Convention on the Contract for the International Carriage of Goods By
Road. Except as otherwise governed by International conventions or other mandatory law. the UPS Terms limit UPS's
liability for damage, loss or delay of this shipment. There are no stopping places agreed upon at Ihe lime of lender of ihe
shipment and UPS reserves the right to route the shipment In any way It deems appropriate. Where allowed by law. shipper
authorizes UPS to act as forwarding agent for export control and customs purposes. If exported from the US. shipper
certifies that the commodities, technology or software were exported from Ihe US In accordance with Ihe Export
Administration Regulations. Diversion contrary to law Is prohibited.
WS 21.0.23 Canon IR1133 34.0A 10/2020

Fold here and place in label pouch

TR#:1Z 56W W51 66 4117 3404

i

*

4t;

ft

&

SHIPPER'S SIGNATURE

DATE OF SHIPMENT

A.
it

1

0.5 KG

FROM:
UPS ACCOUNT NUMBER 164473
- 972-0779140789
ft ARANOFFGERALD DR
i 8 MIRYAM HA-NEVI'A ST.
IBNEIBRAK 51583
! ISRAEL

ENV 1 OF 1
SHP#: 56WW51GD NH8
SHP WT: 0.5 KG
DATE: 25 NOV 2020

98$ N|D 201 9-60
III III llll Illll

V.V..

UPS EXPRESS

SHIP TO:
SCOTT HARRIS CLERK OF T
(120) 247-9303 9
US SUPREME COURT
1 FIRST STREET

1

TRACKING #: 1Z 56W W51 (36 4246 2199

WASHINGTON DC 20543
UNITED STATES

BILLING:: P/P
DESC: DOCU MENTS

EDI-DOC

Shippe.r agrees to the UPS Terms found at vrjvw.ups.comland UPS service centers. For international air carriage, the
Warsawv Convention as amended or Montrea Conventior may apply and limits UPS's liability for loss or damage to cargo.
International carriage by rqad may be subjec to the Com ention on the Contract for the International Carriage of Goods By
Road. Except as;otherwisej governed by inter rational con rentions or other mandatory law. the UPS Terms limit UPS's
liability for damage, loss o delay of this ship nent. There ire no stopping places agreed upon at the lime of tender of the
shipment and URS reserve s the right to route the shlpme it In any way it deems appropriate. Where allowed by law, shipper
authorizes UPS to act as f< rwarding agent fo export com ol and customs purposes. If exported from the US, shipper
certifies that the commodil es, technology or .oftware we e exported from the US in accordance with the Export
Administration Regulations. Diversion contrajy to law is prohibited.
WS 21,0.23 Canon iR1133 34.0A 10/202C

Fold here and place in label pouch

TR#: 1Z 56W W51 66 4246 2199

11
IK

m

A
;ri

E».

©

SHIPPER'S SIGNATURE

DATE OF SHIPMENT

